    FEDERAL ELECTION COMMISSION


     OFFICE OF INSPECTOR GENERAL




             FINAL REPORT



          AUDIT OF AGENCY
CONTROLS GOVERNING THE PROCESS FOR
           PROCUREMENT
    OF VENDOR TRAINING SERVICES
                 As of July 2000



           AUDIT ASSIGNMENT No. 00-01
                                                                      Final Audit Report



                                 Table of Contents

Executive Summary …………………………………………………………                                   i



Background          …………………………………………………………                                 1


      Legal and Regulatory Foundation                                      1

      Allocation of Agency Funds For Vendor Training Services              2

      Audit Objective, Scope, Methodology                                  4

      Statement on Management Controls                                     4



Audit Results       ……….…………………………………………………                                6


      Federal Regulations and Management Controls                          6

      Written Policy and Procedures Needed to Establish Control            7

      The Transaction Cycle for Requesting Vendor Training Services       10

      Uniform Processing Procedures Need to be Established                12

      Standard Form Needed for Initiating the Request                     13

      A Complete Record of Training Activities Needed                     15

      Stronger Controls Needed for Certifying Vendor Training             15

      Travel and Related Training Expense Need to be Tracked              17

      Processing of Information Should be Computerized                    18



Appendix A          Management Letter                                     22


Appendix B          Management’s Comments                                 26


Appendix C          OIG Response to Management’s Comments                 31


Appendix D          Article 24 of the Labor Management Agreement          33


Appendix E          OPM Standard Training Form 182                        35


Appendix F
         FEC Form 10-14, Inspection and Receiving Report       36

Appendix G
         FEC Form 10-5, Official Travel Authorization          37
                                                 i
Executive Summary Section                                              Final Audit Report No 00-01



                                   Executive Summary
The fundamental objective of any staff training program, or portion thereof, should be to ensure
that the right training is provided to the right people at the right time and at the right cost. In
addition, the Director of the U.S. Office of Personnel Management has included: “And in the
Federal government, we must always take care to add ‘and in the right way’ to ensure that the
Federal civil service is managed in accordance with the Merit System principles” (Testimony by
the Honorable Janice R. Lachance before the Senate Subcommittee on Management,
Restructuring, and the District of Columbia, on March 9, 2000). In her testimony the Director
indicated that in order to accomplish human capital objectives, the Office of the President has
included strategic human resources management as a priority management objective in the fiscal
year 2001 budget. In addition, the Director went on to say:


       “We must also continue to add value to the workforce that is already on board and
       find ways to promote the potential of our employees by making them more
       knowledgeable, more adaptable, and better able to meet changing needs. Part of
       every employee’s job will be to keep learning about the ever-changing work to be
       performed. The Clinton/Gore Administration realizes this and has made lifelong
       learning a priority for the Federal workforce. Continual learning and development
       are the keys here, with a focus on adding the skills and competencies that will
       improve results.”


                                        Audit Summary


The Office of Inspector General (OIG) completed a limited-scope audit of the staff training
program at the Federal Election Commission (FEC). We conducted our audit to assess the
effectiveness and efficiency of management controls governing the process for procurement of
training services obtained through outside vendors. Based on our audit, we conclude that agency
controls governing that program are not effective or efficient. Our audit did not examine training
developed “in-house,” which is training created and administered by agency staff, for agency
staff.

Furthermore, the Code of Federal Regulations requires Federal agencies to maintain a record of
all agency training activities. However, based on our detailed examination of agency training
records, we conclude that the FEC would not be capable of producing a complete record of
training activities which would comply with Federal regulations.

The procurement of vendor training services at the FEC is comprised of a set of operating
practices which seem to have simply evolved over time without the aid of written administrative
policy and procedures. From agency staff we interviewed during our audit, there is unanimous
agreement that the current process for submitting and approving staff requests for vendor training
services is a cumbersome, paper intensive process which is extremely costly; especially in terms
                                                 ii
Executive Summary Section                                              Final Audit Report No 00-01

of the unnecessary expenditure in staff time. Moreover, this paper driven and labor intensive
process results in excessive cycle time, needless duplication of work, misdirected and lost
paperwork, and allows payments to vendors for services not received. Even so, the same
procedures continue to be followed in the context of applying “past practice” to the process for
requesting vendor training services. As a result, the FEC is also subject to the following risks:

•   Divisions and major FEC offices follow inconsistent policy and procedures.

•   Sound procurement decisions may be inhibited.

• 	 Cost reductions associated with a uniform approach, monitored by an oversight entity, may
    not be obtained.

•   Services may be procured that are below expectations.

•   Services may have been purchased in excess of competitive prices.


                                  Audit Recommendations


For the process to procure vendor training services, in the AUDIT RESULTS section of this
report we recommend that the FEC:

•   develop policies and procedures that establish effective management controls;
•   design controls to ensure that each training request is properly routed through the agency;
•   require a standard form to be used for initiating a request;
•   maintain a complete record of all agency staff attending vendor training services;
•   require staff attending vendor training to certify that training services were received;
•   track related travel and other training expenses; and
•   replace the current paper-based system of records with an efficient electronic system.

In addition to our audit recommendations, suggestions for improvement of management practices
have been provided to the FEC in the form of a Management Letter, which is included as
Appendix A.


                 Summary of Management’s Response to Audit Results


On June 13, 2000, agency management concurred with six of the seven audit findings and related
recommendations contained in the draft audit report. According to their response, three of the
seven audit recommendations have already been implemented. In addition, management
indicates that other audit recommendations will be incorporated as standard operating procedures
to be developed by the agency for processing transactions requesting vendor training services.
                                              iii
Executive Summary Section                                           Final Audit Report No 00-01

However, management chose to disagree with our audit recommendation to develop and
implement a computer information system to replace the current paper based system of records.
The complete text of management’s comments to our audit report can be found in this report in
Appendix B. Our response to management’s comments is shown as Appendix C.
                                                 1
Background Section                                                      Final Audit Report No 00-01



                                     BACKGROUND

           Legal and Regulatory Foundation for Federal Training Programs

The Government Employees Training Act of 1958 (GETA), created the framework for Federal
department and agencies to plan, develop, establish, implement, evaluate, and fund training and
development programs designed to improve the quality and performance of the workforce.
Paragraphs (1), (2), and (3) of section 2 of GETA capture the purpose and intent of Federal
public policy relating to the training of government staff. In part, GETA declares that such
programs shall be designed to:

   •    improve public service;
   •    lead to dollar savings;
   •	   build and retain a permanent cadre of skilled and efficient government employees well
        abreast of scientific, professional, technical, and management developments;
   •    lower turnover of personnel;
   •	   lead to reasonably uniform administration of training, consistent with the mission of the
        agency; and
   •    fair and equitable treatment of Federal employees with respect to training.

The GETA also provided the legal means for authorizing training expenditures, including the
authorization for purchasing training from nongovernmental institutions. The GETA was
codified into Title 5 of the United States Code (U.S.C.), section 41. The U.S.C. is a codification
of those sections of legislative acts that prescribe action by Federal department and agencies.

The U.S. Code of Federal Regulations (C.F.R.) is a codification of the general and permanent
rules published in the Federal Register by the executive department and agencies of the Federal
government. Federal regulations require agencies to maintain information concerning the general
conduct of agency training activities for internal management purposes and for the President and
the Congress to discharge effectively their respective responsibilities for supervision, control, and
review of training activities. Agencies should maintain records on the following: 1) agency
training plans (5 C.F.R., section 410.302(d); 2) training activities funded and individual staff
trained (5 C.F.R., section 410.311); 3) payments made for travel, tuition, fees and other necessary
training expenses (5 C.F.R., section 410.406); and 4) evaluations of the results of training and
how well agency training activities met short and long-range needs (5 C.F.R., section 410.602).

Executive Orders provide agency heads with additional Presidential direction on how the law is
to be used. Executive Order No. 11348, as amended, delegates authority for training to the U.S.
Office of Personnel Management (OPM), and directs OPM to provide assistance to Federal
department and agencies. While OPM sets overall policy and provides general guidance, Federal
agencies are free to develop their own plans, design their own programs, and allocate resources
as they think is necessary to meet their needs.
                                                 2
Background Section                                                     Final Audit Report No 00-01

In addition to OPM, three other key agencies impact the administration of Federal training
programs: 1) the U.S. Office of Management and Budget (OMB), 2) U.S. General Services
Administration (GSA), and 3) the U.S. General Accounting Office (GAO).

The OMB issues various directives that influence the management of Federal programs. For
example, OMB Circular A-123, Management Accountability and Control, provides guidance to
Federal managers on improving the accountability and effectiveness of programs and operations
by establishing, assessing, correcting, and reporting on management controls. In the same
Circular, OMB states: “Management accountability is the expectation that managers are
responsible for the quality and timeliness of program performance, increasing productivity,
controlling costs and mitigating adverse aspects of agency operations, and assuring that programs
are managed with integrity and in compliance with applicable law.”

Finally, the GSA affects staff training and development through publication of procurement
directives, while the GAO assists Federal department and agencies in the interpretation of laws
governing the expenditure of public funds.

As part of its effort to address the human capital crisis currently facing the Federal government;
the Senate Subcommittee on Oversight of Government Management, Restructuring, and the
District of Columbia asked the GAO to review selected Federal agencies’ training programs for
Subcommittee hearings held on May 18, 2000. The GAO gathered information on how the
selected Federal agencies design, implement, and evaluate their training programs. The Federal
Election Commission (FEC) was not one of the agencies selected to participate in the GAO
review.


                       Allocation of FEC Funds for Staff Training


According to the fiscal year 1998-2003 Strategic Plan developed and published by the FEC: “As
a personnel intensive agency, over 70% of the Commission’s resources are staff costs, and the
remaining 30% represents mainly rent and other direct support for that staff.” For fiscal years
1989 through 2000, Exhibit No. 1 on page 3, shows the total annual agency budget; the
expenditures for vendor training services as reported by the FEC; the percentage of expenditures
as part of the annual budget; and the average number of agency staff reported as employed during
the fiscal year. The fiscal year runs from the first of October through the end of September of the
following year. Consequently, fiscal year 2000 training expenditures as well as the average
number of staff are based on budget projections and subject to change prior to year end.
                                                                            3
Background Section                                                                                                   Final Audit Report No 00-01



Exhibit No. 1
                          FEC                        Reported Vendor                            Percentage                  Average
                         Annual                         Training                                    of                      Staff For
Fiscal Year              Budget                       Expenditures                                Budget                   Fiscal Year
  1989              $15,683,000             $83,200       0.53%                                                                251.3
  1990              $15,330,000             $53,700       0.35%                                                                241.7
  1991              $17,149,800             $77,900       0.45%                                                                252.9
  1992              $18,808,000             $97,700       0.52%                                                                266.2
  1993              $21,143,000             $66,100       0.31%                                                                270.1
  1994              $23,564,000            $103,300       0.44%                                                                293.3
  1995              $25,648,000             $99,400       0.39%                                                                314.8
  1996              $26,521,000             $55,000       0.21%                                                                308.5
  1997              $28,165,000             $62,000       0.22%                                                                296.7
  1998              $31,650,000             $96,500       0.30%                                                                302.7
  1999              $36,850,000            $208,000       0.56%                                                                322.1
  2000              $38,278,000            $173,800       0.45%                                                                351.5
Source: Office of Inspector General / Federal Election Commission

For the data shown in the table above, Exhibit No. 2 depicts the relationship between the total
budget as shown by the steadily increasing line, and fiscal year expenditures for procurement of
vendor training services.

    Exhibit No. 2:



                  $40,000,000                                                                                       $200,000
                  $35,000,000                                                                                       $180,000
                                                                                                                               Training Expense

                                                                                                                    $160,000
                  $30,000,000
                                                                                                                    $140,000
                  $25,000,000
         Budget




                                                                                                                    $120,000
                  $20,000,000                                                                                       $100,000
                  $15,000,000                                                                                       $80,000
                                                                                                                    $60,000
                  $10,000,000
                                                                                                                    $40,000
                   $5,000,000                                                                                       $20,000
                          $0                                                                                        $0
                                1989
                                       1990
                                              1991
                                                     1992
                                                            1993
                                                                   1994
                                                                          1995
                                                                                 1996
                                                                                        1997
                                                                                               1998
                                                                                                      1999
                                                                                                             2000




                                                             Fiscal Year



Each time that the FEC has been forced to cut expenses in the last ten years, staff training is one
of the first items mentioned for reduction. The final FEC appropriation for fiscal year 1991 was
the full amount requested; however, the agency reported that it was forced to make cuts in
training to cover larger-than-anticipated pay increases for executives and staff. In fiscal year
1995, the FEC froze hiring and most non-personnel spending (e.g., travel, training, printing).
Again in fiscal year 1996, the FEC instituted a partial hiring freeze and reported cutting select
                                                4
Background Section                                                    Final Audit Report No 00-01

non-personnel expenses, such as training and outreach programs. Viewing staff training
programs as discretionary spending is consistent with conclusions reached by the GAO. In recent
testimony before Congress, the GAO states, “little data exists on the overall Federal
expenditures on training, but the anecdotal evidence is that, in trying to save on workforce-
related costs, agencies cut back on the training investments needed.” (Managing Human Capital
in the Twenty-first Century, GAO/T-GGD-00-77, March 9, 2000)

In her testimony before the same Senate Subcommittee, the Director of OPM stated:

       “OPM recognizes that without continuous learning and a real investment in training
       and development, worker ‘empowerment’ is an empty phrase. Each day brings fresh
       examples of how a better trained workforce correlates with reduced costs, improved
       services, and increased customer and employee satisfaction. Up-to-date knowledge,
       skills, and abilities are critical for both organizational performance and individual
       employee success.” (Statement of Janice R. Lachance, Director Office of Personnel
       Management, March 9, 2000)


                     OIG Audit Objectives, Scope and Methodology

The primary purpose of our audit was to assess the efficiency and effectiveness of management
controls governing the process for procurement of vendor training services at the FEC. Federal
regulations require Federal agencies to adopt specific practices for managing the training of
agency staff. A key provision of Federal regulations require maintaining a complete record of
staff training activities.

To accomplish our audit objectives, we used various methods of data collection including staff
interviews, document reviews, and the examination of individual training records for fiscal year
1999. We did not examine training developed “in-house;” which is training created and
administered by agency staff, for agency staff.

We conducted our audit survey and fieldwork from December 1999 through May 2000, in
accordance with generally accepted government auditing standards appropriate to the scope of
the audit described above.


                           Statement on Management Controls

As part of our audit, we assessed the system of management controls and operational practices
relating to the process for procurement of outside vendor training services. Our assessment was
performed to determine whether the FEC has put in place management controls required by
OMB directives and Federal regulations. In general, these controls include the policies and
procedures the FEC has designed and implemented to establish a process for training agency
staff.
                                                 5
Background Section                                                      Final Audit Report No 00-01

Due to inherent limitations, an evaluation made for the limited scope purposes described above,
would not necessarily disclose every reportable condition in the staff training program at the
FEC. The term reportable condition refers to significant weakness in the design or operation of a
management control causing deficient performance. However, we did identify reportable
conditions as a result of our audit, and these conditions and their effect on the FEC staff training
program are fully described in the AUDIT RESULTS section of this report.
                                                 6
Audit Results Section                                                  Final Audit Report No 00-01


                                        Audit Results
The Office of Inspector General (OIG) completed a limited-scope audit of the staff training
program at the Federal Election Commission (FEC). We conducted our audit to assess the
effectiveness and efficiency of management controls governing the process for procurement of
training services for agency staff obtained through outside vendors. By conducting our audit in
accordance with generally accepted government auditing standards, we are also required to
evaluate agency compliance with applicable Federal laws and regulations. Throughout the audit,
we regularly updated management on program risk which we identified in the conduct of our
audit work. In this report, we have provided audit recommendations which we believe will
improve program performance and reduce risk inherent in any agency operation. In addition to
our audit recommendations, suggestions for improvement of management practices have been
provided to the FEC in the form of a Management Letter, which is shown in this report as
Appendix A.

Initially, the focus of our audit was the training file maintained by the FEC Office of Personnel.
Because those training records were found to be incomplete for the period under review, we
expanded the scope of our audit. Ultimately, our examination of records pertaining to the
procurement of vendor training services became agency-wide. Therefore, an agency-wide
approach will be needed to implement the recommendations contained within this audit report.

Based on our audit work, we conclude that agency controls governing the process for
procurement of vendor training services are neither effective nor efficient. Our audit also found
that the FEC would not be capable of producing a complete record of all staff training activities
which would comply with existing Federal laws and regulations. However, from our detailed
examination of training records, we noted no specific instances of either fraud or abuse.

As described below, Federal regulations specifically require that the FEC maintain evidence of
training activities in four general areas. Our audit primarily concentrated on the regulation
provisions contained within numbers two and three. We did not attempt an in-depth review of
agency training plans required by provision number one, and we found no evidence to indicate
that the agency evaluated the effectiveness of vendor training services, as required by provision
number four.


                        Federal Regulations and Management Controls

Federal regulations require agencies to maintain information concerning the general conduct of
agency training activities for internal management purposes and for the President and the
Congress to discharge effectively their respective responsibilities for supervision, control, and
review of training activities. Specifically, Federal regulations require evidence of: 1) agency
training plans (5 C.F.R., section 410.302(d); 2) training activities funded and individual staff
trained (5 C.F.R., section 410.311); 3) payments made for travel, tuition, fees and other necessary
training expenses (5 C.F.R., section 410.406); and 4) evaluations of the results of training and
how well agency training activities met short and long-range needs (5 C.F.R., section 410.602).
                                                7
Audit Results Section                                                 Final Audit Report No 00-01

In addition to the requirement imposed on the agency of maintaining an adequate record on
agency training activities, the U.S. Office of Management and Budget (OMB) in Circular A-123,
Management Accountability and Control, states:

        “Agencies and individual Federal managers must take systematic and proactive
        measures to (i) develop and implement appropriate, cost-effective management
        controls for results-oriented management; (ii) assess the adequacy of management
        controls in Federal programs and operations; (iii) identify needed improvements; (iv)
        take corresponding corrective action; and (v) report annually on management
        controls. OMB Circular A-123 defines management controls as “the organization,
        policies, and procedures used to reasonably ensure that (i) programs achieve their
        intended results; (ii) resources are used consistent with agency mission; (iii)
        programs and resources are protected from waste, fraud, and mismanagement; (iv)
        laws and regulations are followed; and (v) reliable and timely information is
        obtained, maintained, reported and used for decision making.”


According to OMB Circular A-123, a subset of management controls are the following four
internal controls:

        1. Delegation of Authority and Organization
        2. Separation of Duties and Supervision
        3. 	 Access to and Accountability for Resources, to include that custody and use of
             resources should be assigned and maintained.
        4. 	 Recording and Documentation - the documentation for transactions, management
             controls, and other significant events must be clear and readily available for
             examination.

The following explicit example of an effective management control is contained in OMB
Circular A-123: “the management control standard of organization would align staff and
authority with the program responsibilities.” Conversely, our audit revealed that because the
FEC has not developed written policy and procedures for the process to procure vendor training
services, no management control standard of organization has been established or documented.
Consequently, as described below, this prevents proper alignment of staff authority with official
responsibilities.


               Written Policy and Procedures Needed to Establish Control

The FEC Office of Personnel is a conduit for connecting the administration of the agency’s
training programs with administrative guidance issued by the U.S. Office of Personnel
Management, as well as other Federal entities. To carry out their responsibilities, management
staff in the FEC Office of Personnel must have access to information on agency training
activities. Over time, the function of training agency staff has evolved to become solely the
responsibility of the division/office manager. Hence, justification for training is often not
included in a training request. This was not consistent with training procedures experienced by
                                                 8
Audit Results Section                                                   Final Audit Report No 00-01

the new personnel staff while working at other Federal agencies. Without documented policy
and procedures, misunderstanding of program responsibilities between parties with overlapping
authority can occur.

The only written provisions identified during our audit, relating to policy and procedures for
agency staff requesting vendor training services, reside within Article 24 of the Labor
Management Agreement between the FEC and the National Treasury Employees Union (see
Appendix D). While the Labor Management Agreement may provide equality to union
members in the application of agency practices, it is not an adequate substitute for ensuring that a
program adheres to Federal laws, regulations, and directives.

As mentioned earlier in the BACKGROUND section of this report, a Senate Subcommittee
asked the GAO to review selected Federal agencies’ training programs for Subcommittee
hearings held on May 18, 2000. In preparation for its testimony, the GAO sent a data collection
document to select Federal agencies with a list of policy issues to be evaluated. The following
bullets identify policy issues targeted by the GAO:

• 	 Who or what office within the agency is accountable for evaluating the agency’s training
     program?
•    How does the agency track the specific training completed by individual employees?
•	   How does the agency measure the extent to which training programs contribute to improved
     performance of agency mission and strategic goals?
•	   How does the agency determine the cost of providing training? What cost components are
     included?
•    How does the agency determine its training budget?
•	   How does the agency ensure that sufficient training slots are available to meet employees’
     needs?
•    Does the agency require that staff meet certain training requirements?
•	   What criteria does the agency use in deciding whether to develop internal versus external
     sources of training?
•    What priorities has the agency established?
•	   How does the agency identify the skills needed by its employees to successfully perform the
     agency’s mission and strategic goals?
•	   How does the agency measure the extent to which its employees have the skills identified as
     necessary?
•	   How does the agency plan to use training to address any gaps between needed and existing
     levels of employees’ skills?

In addition to the issues listed by the GAO, to aid management in developing written policy and
procedures; throughout this report we will be looking at the agency’s process to acquire vendor
training services, identify program shortcomings, and offer our recommendations for
improvement.
                                                 9
Audit Results Section                                                  Final Audit Report No 00-01

Without documented administrative policy and procedures, front-line managers cannot properly
administer or monitor program operations. Our audit provided strong evidence demonstrating
the adverse effect that an absence of administrative guidance has on agency operations. For
example, during our detailed examination of staff training records we found the following:

•	      When we were able to confirm changes were made to an original training request,
        documentation detailing the change was consistently missing from agency-wide training
        files. Without a complete record of all related transactions affecting each individual
        training request, funds can be disbursed for training services not received. For example,
        if training is canceled after being requested; this event needs to be recorded and processed
        expeditiously to the Finance Office.

•	      The agency appears to have purchased training at substantially higher prices than rates
        charged by other vendors providing similar training. Two instances were of particular
        significance:

        ⇒	 The first instance involved paying $1,145 for one member of the agency to attend
           training entitled, The Grammar Course. Ironically, during the year the same
           division purchased similar training for staff at a much lower rate. For example, for
           courses entitled Professional’s Grammar Review and Grammar Skills for Federal
           Employees, the cost of training was $139 and $295, respectively.

        ⇒	 The second instance involved paying $8,900 for one member of the agency to
           attend approximately two weeks of training entitled, Senior Managers in
           Government.

        While cost is not the sole determining factor in selecting training, the lack of
        administrative guidance may cause a higher expenditure of funds than is necessary.


We believe the first priority should be for the FEC to establish and document program policy and
procedures. OMB Circular A-123, Management Accountability and Control, requires Federal
agencies to implement management controls to ensure reliable and timely program information is
obtained, maintained, reported and used for decision making. In addition, OMB Circular A-123
requires that the documentation for management controls, and other significant events must be
clear and readily available for examination.


Audit Recommendation No 1: We recommend the FEC develop written policies and
procedures that establish and document effective management controls for the procurement of
vendor training services consistent with OMB Circular A-123.

Management’s Comments to Audit Recommendation No. 1: “We concur. The improvement
in the procurement of vendor training has begun. Since April 1, 2000, the Office of Personnel
has required that all requests for vendor training be submitted on a SF-182, and since October
1, 1999, the Office of Personnel has maintained a file, by office, of each employee’s training. In
                                               10
Audit Results Section                                                 Final Audit Report No 00-01

addition, the Office of Personnel will draft policies and procedures for the procurement of
vendor training, establishing effective management controls in conformance with the
requirements of OMB Circular A-123. The procedures also will conform to the negotiated
policies established through the collective bargaining process with the National Treasury
Employee Union. The Office of Personnel plans to implement the full set of policies and
procedures in October 2000.”

OIG Response to Management’s Comments on Audit Recommendation No. 1: The agency’s
completed and planned actions are responsive to the audit issues identified. The planned actions,
when fully implemented, should satisfy the intent of the audit recommendation. Furthermore, the
milestone date provided for implementing corrective action, appears to be reasonable.


           The Transaction Cycle for Requesting Vendor Training Services


The procurement of vendor training services at the FEC is comprised of a set of operating
practices which seem to have simply evolved over time without the aid of documented guidance.
From agency staff we interviewed during our audit, there is unanimous agreement that the current
process for submitting and approving staff requests for vendor training services is a cumbersome
paper intensive process, which is extremely costly especially in terms of unnecessary expenditure
in staff time. Even so, the same ineffective and inefficient procedures continue to be followed in
the context of applying “past practice” to the request process.

The typical flow of information and documentation for requesting vendor training services is
depicted in Exhibit No. 3, on page 11. Starting at the bottom left hand corner of the chart, an
individual submits a request for training to the division/office manager. If the request is
approved, the division/office will prepare and forward a written training request to the FEC
Office of Personnel. At the Office of Personnel a personnel specialist will transfer the
information received in the original training request into an electronic version of a Standard
Form - 182 (see Appendix E). The SF-182 was developed by the U.S. Office of Personnel
Management to capture all the necessary information for the request, authorization, agreement,
and certification of staff training. The electronic version of the SF-182 is maintained in a
computer software program at the FEC, which can be accessed using the agency’s computer
network. After completing the SF-182, the Office of Personnel will send it to the originating
division/office for review and approval.
                                                                          11

Audit Results Section                                                                                  Final Audit Report No 00-01




Exhibit No. 3



                               Overview of Current Transaction Cycle
                              for Requesting Vendor Training Services




         $             $
                              Approval of Budgeted                             Copy of Form SF - 182
                                    Funds
                                                                                                       FEC Administration
Office of Planning and Management
                                                                                         Procurement
                                                                                           Number




                                                                                                                      Forward
                              Original Training
                                                                                                                    Procurement
                                  Request
                                                        FEC Office of Personnel                                    Documentation
                                           SF-182




                                        Notify Staff

                                                              Register Staff
                                                               for Training

                  Division/Office
                     Manager




                   Training                                                            Invoice
                  Approved


    Training Request
                                                  Vendor Training                                        Finance Office




                                          Vendor Services
                                            Certified as
                                             Received


   FEC Staff Member




Source: Office of Inspector General / Federal Election Commission
                                                12
Audit Results Section                                                  Final Audit Report No 00-01

When the signed SF-182 returns from the division/office, the Office of Personnel submits the
original copy to the Director, Planning and Management. The role of the Director is to determine
whether the division/office has enough funds remaining in their training budget to acquire the
requested training. Provided the funds are available the Director, Planning and Management
initials the SF-182 and returns it to the Office of Personnel for further processing.

The Office of Personnel next sends the SF-182 to the Office of Administration, so funds can be
committed from agency appropriations to pay for the requested training. The Administrative
Officer assigns a sequential purchase order number and enters it onto the SF-182, retaining a
copy of the form for the file. The Office of Administration returns the original SF-182 to the
Office of Personnel and sends a copy to the Finance Office for obligation of agency funds. Upon
receiving the purchase order number, the administrative specialist in the Office of Personnel will
contact the vendor to register the employee, and also notify the appropriate division/office
confirming the reservation for training.


                 Uniform Processing Procedures Need to be Established

Based on our examination of agency training records, we found that not all training transactions
requesting vendor services are being routed uniformly throughout the agency. For fiscal year
1999, the FEC Office of Administration committed a total of $216,679 for vendor training
services. Records on file for those same services at the division/office level only showed agency
staff requesting a total of $192,166. Furthermore, records for the same services over the same
period at the Office of Personnel only totaled $93,768. Conspicuously absent from the training
file maintained by the Office of Personnel were records relating to training for groups of staff. A
training request may be a transaction requesting training for only one employee, or it may be a
single request for training a group of thirty or more staff in one particular subject matter.
According to our audit, a total of $117,011 was committed by the Office of Administration to
procure group training using outside vendor services. From this total, we calculated that $98,019
or approximately 84 percent, was missing from the training records on file in the FEC Office of
Personnel.

To carry out their official duties, staff responsible for training activities must have access to
reliable program information. As previously stated, OMB Circular A-123, requires Federal
agencies to implement management controls to ensure reliable and timely program information is
obtained, maintained, reported and used for decision making.


Audit Recommendation No. 2: We recommend that the FEC design and implement
management controls to ensure that each training request is uniformly processed through the
agency.

Management’s Comments to Audit Recommendation No. 2: “We concur. The policies and
procedures for the procurement of vendor training described in our response to
Recommendation 1 will establish a uniform process so that all training requests are handled in
the same manner.”
                                                 13
Audit Results Section                                                     Final Audit Report No 00-01



OIG Response to Management’s Comments on Audit Recommendation No. 2: The agency’s
planned actions are responsive to the audit issues identified, and when fully implemented, should
satisfy the intent of the audit recommendation.

The following bar chart summarizes the results of our audit findings relating to funds requested
and committed for vendor training services for fiscal year 1999. In addition, the fourth and fifth
columns report funds obligated and expended, respectively. Agency financial reports dated
March 31, 2000 showed total funds obligated for vendor training services as $217,088 and total
funds expended as $207,957. At the time of this audit report, not all vendor invoices for fiscal
year 1999 training services had been received by the Finance Office. When these outstanding
invoices are processed, and the accounting system is closed out for the period, funds obligated
should agree with funds expended.


Exhibit No. 4:

         $250,000

                                     $216,679                        $217,088
                                                                                      $207,957
         $200,000                                     $192,166




         $150,000




         $100,000        $93,768




          $50,000




              $0
                    Personnel File   Committed     Divisions' File   Obligated       Expended


Source: Office of Inspector General / Federal Election Commission


                        Standard Form Needed For Initiating the Request

There is no standard form used at the division/office level to initiate a request for vendor training
services. Consequently, the initial training request is generated in many different formats, often
lacking critical information needed to complete the processing of the training transaction. To
compensate for these shortcomings, as described earlier, a practice began in the Office of
Personnel to copy the information from the original training request onto a SF-182. The Office
of Personnel will contact the division/office regarding any missing information and after
completing the SF-182, send it to the originating division/office for review and approval.
                                                  14
Audit Results Section                                                     Final Audit Report No 00-01

Through past practice, staff in the division/office know to return the paper copy SF-182 to the
Office of Personnel for further processing. The Office of Personnel often does not keep a copy
of the original training request; and just as often, the division/office does not retain a copy of the
SF-182.

One obvious way to improve the current process is to have each division/office submit a SF-182
when requesting vendor training services. Information could be initially entered onto the
computerized version of the SF-182; a paper copy could be printed, approved, and submitted to
the Office of Personnel. This procedure would immediately improve the current process by: 1)
ensuring all information necessary to process the training transaction is entered before initially
submitting the request, 2) reducing unnecessary burden on staff in the Office of Personnel, 3)
eliminating the unnecessary practice of returning the paper copy SF-182 to the originating office,
4) eliminating retention of different versions of the same request for training, and 5) speed up the
entire training request process, while at the same time reducing waste.

The current process to initiate a request for vendor training services at the FEC does not adhere
to Federal policy statements for minimizing waste in government programs. For instance, OMB
Circular A-123 states:

        “The proper stewardship of Federal resources is a fundamental responsibility of
        agency managers and staff. Federal employees must ensure that government
        resources are used efficiently and effectively to achieve intended program results.
        Resources must be used consistent with agency mission, in compliance with law and
        regulations, and with minimal potential for waste, fraud, and mismanagement.”


Audit Recommendation No. 3: We recommend the division/office use only the SF-182 for
generating a request to the Office of Personnel for vendor training services.


Management’s Comments to Audit Recommendation No. 3: “We concur, and this
recommendation has been implemented. Since April 1, 2000, the Office of Personnel has
required that all requests for vendor training be submitted on a SF-182. Requests for training
submitted in any other format are returned unprocessed, and the Office of Personnel no longer
prepares SF-182s for other offices. We see no need to accept only computer-generated SF-182s.
Any properly completed, legible SF-182 is acceptable and will be processed. The policies and
procedures for the procurement of vendor training described in our response to
Recommendation 1 will require the use of the SF-182 for all training requests.”


OIG Response to Management’s Comments on Audit Recommendation No. 3: The agency’s
reported actions are responsive to the audit issues identified. Based on a subsequent review of
training records on file in the Personnel Office, this audit recommendation is considered closed.
                                                15
Audit Results Section                                                 Final Audit Report No 00-01



                    A Complete Record of Training Activities Needed

As stated previously, Title 5 of the CFR, section 410.311 requires Federal agencies to maintain a
record of “training activities funded and individual staff trained.” However, the FEC does not
maintain a record of all agency staff attending training. This was especially evident when a
division/office would request that vendor services be purchased so that a large group of staff
could attend a training event. As previously explained, a training request may be a transaction
requesting training for only one employee, or it may be a single request for training a group of
thirty or more staff in one particular subject. Although, the anticipated cost of the vendor
services might be included on the training request to indicate the maximum number of staff
allowed to attend the training; according to our audit, in most instances the agency had no record
of who actually went to the group training exercise.


Audit Recommendation No. 4: We recommend the FEC establish management controls
ensuring that a complete record is maintained of all staff attending vendor training
services sponsored by the agency.


Management’s Comments to Audit Recommendation No. 4: “We concur, and this
recommendation has been implemented. Since October 1, 1999, the Office of Personnel
has maintained a file, by office, of each employee’s training, and the official record of
training will be maintained by fiscal year by the Office of Personnel. The policies and
procedures for the procurement of vendor training described in our response to
Recommendation 1 will require all participants attending training, individual or group,
to have a record of their training documented using the SF-182 maintained in the Office
of Personnel.”


OIG Response to Management’s Comments on Audit Recommendation No. 4: The agency’s
reported actions are responsive to the audit issues identified. Based on a subsequent review of
training records on file in the Personnel Office, this audit recommendation is considered closed.


        Stronger Controls Needed For Certifying Training Services Received

During our examination of records on file in the FEC Finance Office, we came across
documentation showing a payment made for vendor training services before notice was received
that the employee initially requesting the training contacted the vendor and canceled. Following
up on this issue, we identified a management control that should have detected this condition
prior to payment being made. After training is received, but before payment is made, the Finance
Office sends a FEC Form 10-14 to staff attending vendor training (see Appendix F). This
standard form was developed by the FEC to serve the function of a receiving report. The form is
designed to be signed to certify that training services were actually received, a debt has been
                                                 16
Audit Results Section                                                   Final Audit Report No 00-01

incurred, and payment should be approved. After being signed, the FEC Form 10-14 is sent back
to the Finance Office and attached to the vendor invoice.

During our audit, we found no agency directive which required the individual actually attending
the training to certify that training services were received. Regarding the particular incident cited
above, a special assistant signed the FEC Form 10-14 certifying that training was received which
released the payment. Our examination of training records showed that out of 171 vendor
invoices on file in the Finance Office, 167 invoices were approved for payment. Although all
167 disbursements were supported with a signed FEC Form 10-14; only 23 forms, or
approximately 14 percent were signed by the individual actually attending the training.

Consequently, in one of the few instances where we were able to establish that a management
control existed and was applied to every record in the file when applicable, the control was found
to be ineffective. As stated earlier, according to OMB Circular A-123, Management
Accountability and Control, the third objective for establishing effective management controls is
to ensure that policies and procedures protect programs and resources from “waste, fraud, and
mismanagement.” If the staff attending agency training were required to sign a form certifying
that training services were received; not only would it aid in preventing inappropriate payment to
vendors, but also attest to the fact that the individual actually attended the training. Without a
control of this type, it would be difficult to establish evidence of an action committed in error
versus an act of program fraud.


Audit Recommendation No. 5: We recommend the FEC require all staff attending training to
sign a form certifying that the vendor training services have been received.


Management’s Comments to Audit Recommendation No. 5: “We concur, and this
recommendation has been implemented. As of April 1, 2000, the Personnel Office has required
employees attending training to sign the original SF-182 after they have attended the training in
order to certify their attendance and completion of the training. This requirement will be
incorporated in the policies and procedures for the procurement of vendor training described in
our response to Recommendation 1. We, however, will continue to require that all receiving
reports, FEC Form 10-14, for training be signed by designated staff authorized to approve
payments.”


OIG Response to Management’s Comments on Audit Recommendation No. 5: The agency’s
reported actions are responsive to the audit issues identified. The OIG would like to reemphasize
the importance of communication between the management official who signs the receiving
report: FEC Form 10-14, with the employee attending the training. Specifically, it is important
for the employee to confirm in writing to the authorizing official (by signing the SF-182 after
completing the training) that in fact the vendor services were received. Based on a subsequent
review of training records on file in the Personnel Office, this audit recommendation is
considered closed.
                                                  17
Audit Results Section                                                     Final Audit Report No 00-01



                Travel and Related Training Expense Need to be Tracked

During our audit, we were also monitoring the accuracy and completeness of other financial
information required to be maintained by Federal regulations. As previously stated, Title 5 of the
CFR section 410, requires a record of payments made for travel, tuition, fees and other necessary
training expenses.

Based on agency documentation, the FEC could not identify all travel and related training
expenses as required by Federal regulations. We asked the agency to identify travel and related
expenses associated with staff attending vendor training activities for fiscal year 1999. The
agency provided a report listing funds disbursed for travel expense which proved to be
incomplete. For example, our audit found that no travel expense was listed on the agency’s
report for staff attending vendor training in the following major cities: San Francisco, New
Orleans, Chicago, San Antonio, and Tampa.

At the FEC, all travel related expense is recorded and reported on a FEC Form 10-5, the Official
Travel Authorization (see Appendix G). This form is completed by staff when traveling outside
the local commuting area on official duties, including attending approved training. For financial
accounting purposes, travel expense is identified using a unique and distinct account
classification code different from the account classification code used to identify staff training
activities. Furthermore, purchase order numbers assigned to travel authorization requests also
use a unique and distinct alpha/numeric code. Consequently, there appears to be no primary
identifier to tie travel and other training expense with a related request for vendor training.
Although space is provided on the SF-182 for estimating the entire cost of training, including
travel and miscellaneous expense; that box is not currently used at the FEC.

Audit Recommendation No. 6: We recommend the FEC include all cost of training on the
request for training (SF-182), including related expenses estimated and reported on the travel
authorization form.

Management’s Comments to Audit Recommendation No. 6: “We do not object to this
recommendation. The policies and procedures for the procurement of vendor training described
in our response to Recommendation 1 will require that the estimated cost of travel, for out-of-
town training, be included on the SF-182. The actual cost of training will not be included on the
SF-182. We note that 5 CFR 410.406 states that “agencies shall retain in such form and
manner as the agency head considers appropriate, a record of payments made for travel, tuition,
fees and other necessary training expenses for a reasonable period of time". It does not appear
that Section 410 requires that training and travel expenses be linked. In conformance with OMB
Directive A-11, the directive that establishes federal budgeting and reporting standards, we
record and track training and travel expenses in their separately defined object classes. Thus,
while we do not object to this recommendation, we are not aware of a requirement that training
and travel expenses be linked for each training course.”

OIG Response to Management’s Comments on Audit Recommendation No. 6: The primary
intent of this audit recommendation is to ensure an audit trail exists to identify all training related
                                                18
Audit Results Section                                                  Final Audit Report No 00-01

expense. While the agency’s planned actions are responsive to the audit issue, to fully satisfy the
intent of the audit recommendation; the agency should in fact be capable of linking travel and
related expenses with the corresponding training course. This type of internal control would
ensure that the program is in alignment with guidelines established in OMB Circular A-123,
which requires Federal agencies to implement management controls to ensure reliable program
information is reported.


                 The Processing of Information Should be Computerized

While the discussion thus far has addressed improvement in the current paper processing system,
we believe that the long term solution is in the design and implementation of a computer
information system to store agency records relating to the procurement of vendor training
services. The FEC has developed and implemented a computerized planning and budgeting
system driven by program based workloads and activity data; however, agency training records
are not maintained as part of that system.

The policy section of OMB Circular A-130, Management of Federal Information Resources,
directs Federal agencies to plan in an integrated manner for managing information throughout its
life cycle. Circular A-130 states that agencies shall record, preserve, and make accessible
sufficient information to ensure the management and accountability of agency programs, and to
protect the legal and financial rights of the Federal Government; and incorporate records
management and archival functions into the design, development, and implementation of
information systems. Furthermore, OMB directs Federal agencies to use electronic collection
techniques where such techniques reduce burden on the public, increase efficiency of government
programs, reduce costs to the government and the public, and/or provide better service to the
public.

The FEC could substantially increase the efficiency of processing agency information relating to
the procurement of vendor training services by using computer technology already existing
within the agency. The FEC has acquired a network based version of a computer software
application, referred to as FormFlow. This software allows the computer user to enter data into
an electronic copy of any standard form stored within the application. For example, at the FEC
one of the standard forms stored on the FormFlow application is a copy of the SF-182, developed
by the U.S. Office of Personnel Management for requesting training services. The electronic
version of the form is a template, that when attached to a computer database allows information
entered onto the form to be saved to a central repository. Storing all the vendor training records
in one computer database would allow for easy access to information and ensure that an accurate
repository of data is available for administrators making training related decisions and for
reporting on program results.

In addition, the FormFlow software has the capability to send electronic copies of the SF-182
across the internal computer network. If this capability was combined with advanced digital
signature technology, transferring the training request throughout the agency would become
simply a matter of pushing a button on the computer keyboard. An electronic signature is a data
authentication process which provides assurance that data associated with the signature has not
                                                19
Audit Results Section                                                  Final Audit Report No 00-01

been altered or changed. Electronic transfer of training records would substantially reduce
unnecessary staff hours along with the risk currently associated with processing excessive
amounts of paperwork. During our audit, we found that the single use of the FormFlow
application, as applied to activities for procurement of vendor training services, was limited to
staff in the FEC Office of Personnel entering data into the computerized version of the SF-182,
in order to replace the original paper training request.

In our research for this audit, we obtained information regarding a computer system developed at
another Federal agency for recording and tracking staff training activities. The FEC has the
computer technology available to develop a system which could emulate the major attributes of
that computer system, which include:

•    On-line entry of training requests by employees or others.
•    On-line approvals by supervisors, funding officials, human resources staff.
•    On-line transfer/commitment of funds.
•    On-line catalog of in-house courses.
•    On-line tracking of status of approvals.
•    On-line communication capability between all offices.
•    On-line certification of the status of course completion.
•    Hard copy reports and training requests.
•	   Interface with e-mail to provide automated messages to employees and approving officials
     that action is required, or that action has been taken.

Audit Recommendation No. 7: We recommend the FEC develop and implement a computer
information system to replace the paper based system of records currently maintained for
requesting and acquiring vendor training services.

Management’s Comments to Audit Recommendation No. 7: “We disagree. As discussed
above, with an annual training budget of approximately $200,000, less than .6% of the annual
Commission budget, and with no indication that automation of the training request process will
create more efficiencies than the implementation of procedures incorporating IG Draft Report
Recommendations 1 through 6, we do not believe that an automated vendor training request
process would be cost effective. OMB Circular A-130 does not require federal agencies to
automate all processes, and OMB Circular A-123 instructs agencies “to develop and implement
appropriate, cost-effective management controls.” (emphasis added)

        The IG draft report provides an example of an agency that has implemented an
automated system to record and track training activities. We understand that the agency is the
National Science Foundation (NSF). NSF hired a contractor to develop a custom system to
support an annual training budget of $1.4 million (FY 1999) for 1,150 FTE. While this
expenditure may have been cost effective for the NSF with its large training budget and large
staff, we believe the costs outweigh the benefits for the Commission with a $200,000 training
budget and approximately 350 FTE.
                                                20
Audit Results Section                                                  Final Audit Report No 00-01

       In addition, as described above, the Commission has a number of high priority IT
projects that must be implemented. Because of this we cannot expend resources on the
evaluation and development of a system of lesser priority. One of the pending projects is the
implementation and conversion to new accounting software. After the conversion to the new
software, we plan to incorporate, in stages, the automation of the procurement process.”

OIG Response to Management’s Comments on Audit Recommendation No. 7: As stated,
management does not believe that an automated vendor training request process would be cost
effective. Management supports their position by citing the small percentage of the agency’s
annual budget expended on training courses procured from outside vendors. One of the things
management fails to take into account is that while those expenditures may be a small percentage
of the overall budget, there is a substantial investment in staff resources in order to process
training requests through the agency. This transaction flow is documented in detail in Exhibit
No. 3 of our audit report. As shown, paper copies of training requests along with related
documentation are transferred and kept on file in at least four different agency locations: the
individual division/office, the Office of Personnel, the Office of Administration, and the Finance
Office. Agency staff in each of these offices have a reoccurring need for the information
provided on the paper forms used to request procurement of vendor training services.
Consequently, maintaining the paper based transaction process consumes a significant amount of
agency staff time, which could be put to better use provided a central repository of information
was available upon demand.

To further support their position in this regard, management takes an example used in our audit
report discussion which describes an automated training request system successfully
implemented at another Federal agency. Management reasons that because that Federal agency is
three times larger than the FEC, implementation of an automated training request system may be
cost effective for them; but not for a smaller agency, such as the FEC. We believe that this
conclusion needs further analysis before being accepted.

Management also identifies a number of information technology projects at the FEC with a
higher priority than computerizing the process for agency staff to request vendor training
services. While we acknowledge the importance of first implementing systems with a higher
priority, we do not believe those efforts should mutually exclude the development of internal
systems which increase the agency’s efficiency. As stated in the body of our audit finding, the
FEC currently has the necessary computer technology to develop a central database, as well as
the ability to transfer vendor training requests electronically through the agency. As such, not
only would the conversion from paper forms to electronic medium be a net savings, but also in
alignment with the initiative to transition to an electronic Federal government. The intent of that
government-wide transformation is to ensure that automatic data processing and other
information technologies are acquired and used to improve service delivery and program
management, increases productivity, improve the quality of decision making, reduces waste and
fraud, and wherever practicable and appropriate, reduce the information processing burden for
the Federal government and for persons who provide information to and for the Federal
government.
                                              21
Audit Results Section                                               Final Audit Report No 00-01

Considering the proposed development initiatives at the FEC, the audit recommendation to have
the agency develop a computer-based repository of records for requesting procurement of vendor
training services; is modified as follows: We recommend the FEC develop and implement a
computer information system to replace the current paper based system of records for
requesting and acquiring vendor training services, to coincide with the planned automation
of the agency’s procurement process.


                                          Summary

During our audit, we identified a substantial number of anomalies as a result of ineffective and
inefficient controls governing the process for procurement of vendor training services. If the
FEC would design formal administrative policies and procedures, as well as adopt our other audit
recommendations, significant weaknesses in the current program could be eliminated. We also
believe that during the design stage for developing policy and procedures, the FEC will identify
other methods to streamline and improve the current process. Ultimately, the paper process
should be reengineered to take advantage of existing agency resources and the efficiencies
offered by advances in computer technology.
22
                  Final Audit Report
     Appendix A - Management Letter
23
                  Final Audit Report
     Appendix A - Management Letter
24
                  Final Audit Report
     Appendix A - Management Letter
25
                  Final Audit Report
     Appendix A - Management Letter
26
                       Final Audit Report
     Appendix B - Management’s Comments
27
                       Final Audit Report
     Appendix B - Management’s Comments
28
                       Final Audit Report
     Appendix B - Management’s Comments
29
                       Final Audit Report
     Appendix B - Management’s Comments
30
                       Final Audit Report
     Appendix B - Management’s Comments
                                                     31
                                                                                         Final Audit Report
                                                                                 Appendix C - OIG Response



                           OIG Response To Management’s Comments
                       on the Audit Report Findings and Recommendations


Agency management agreed with six of the seven findings and related recommendations contained in our
audit report (see Appendix A for agency comments). Management states that three of the audit
recommendations have already have been implemented. In addition, management in their written
comments recognizes that “the implementation of Commission-wide procedures for the procurement of
training services will streamline the process and will result in the maintenance of more complete
training records.” We likewise believe many of the identified systemic weaknesses in agency controls
could be eliminated with the design and development of formal policies, along with the enforcement of
agency-wide standard operating procedures.

However, management chose to disagree with one of our audit recommendations. In audit
recommendation number seven, we recommended the agency develop and implement a computer
information system to replace the current paper based system for processing transactions to procure
vendor training services. Management’s opposition to this audit recommendation seems to be two fold:
First, management believes the development of an automated training request process would not be cost
effective. Second, management takes the position that the agency cannot expend resources on the
evaluation and implementation of a system with “lessor priority,” when more important computer
information technology projects await development and implementation.

In their response, management states: “we do not believe that an automated vendor training request
process would be cost effective.” They support their position by citing the small percentage of the
agency’s annual budget expended on training courses acquired from outside vendors. However,
management fails to take into account that while those expenditures may be a small percentage of the
overall budget, there is a substantial investment in staff resources in order to process training requests
through the agency. This transaction flow is documented in detail in Exhibit No. 3 of our audit report.
As shown, paper copies of training requests along with related documentation are transferred and kept on
file in at least four different agency locations: the individual division/office, the Office of Personnel, the
Office of Administration, and the Finance Office. Agency staff in each of these offices have a
reoccurring need for the information provided on the paper forms used to request procurement of vendor
training services. Consequently, maintaining the paper based transaction process consumes a significant
amount of agency staff time, which could be put to better use provided a central repository of information
was available upon demand.

To further support their position in this regard, management uses an example taken from our audit report
which illustrates an automated training request system successfully implemented at another Federal
agency. Management reasons that because that Federal agency is three times larger than the FEC,
implementation of an automated training request system may be cost effective for them; but not for a
smaller agency, such as the FEC. We believe this conclusion needs further analysis before being
accepted.
                                                    32
                                                                                        Final Audit Report
                                                                                Appendix C - OIG Response

Management also identifies a number of information technology projects at the FEC with a higher
priority than computerizing the process for agency staff to request vendor training services. While we
acknowledge the importance of first implementing systems with a higher priority, we do not believe those
efforts should mutually exclude the development of internal systems which increase the agency’s
efficiency. As stated in the body of our audit finding, the FEC currently has the necessary computer
technology to develop a central database, as well as the ability to transfer vendor training requests
electronically through the agency. As such, not only would the conversion from paper forms to
electronic medium be a net savings, but also in alignment with the initiative to transition to an electronic
Federal government. The intent of that government-wide transformation is to ensure that automatic data
processing and other information technologies are acquired and used to improve service delivery and
program management, increases productivity, improve the quality of decision making, reduces waste and
fraud, and wherever practicable and appropriate, reduce the information processing burden for the
Federal government and for persons who provide information to and for the Federal government.

In their response, management describes the planned implementation and conversion to a new accounting
software; after which, management plans to automate the agency’s procurement process. In light of these
proposed internal development initiatives, our audit recommendation is modified as follows: We
recommend the FEC develop and implement a computer information system to replace the current
paper based system of records for requesting and acquiring vendor training services, to coincide
with the planned automation of the agency’s procurement process.
33
                            Final Audit Report
     Appendix D - Labor Management Agreement
34
                            Final Audit Report
     Appendix D - Labor Management Agreement
35
           Final Audit Report
     Appendix E - OPM SF-182
36
               Final Audit Report
     Appendix F - FEC Form 10-14
37
              Final Audit Report
     Appendix G - FEC Form 10-5
